<html>
<title> - S. 285 S. 558 S. 555</title>
<body><pre>[Senate Hearing 108-66]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-66

                          S. 285 S. 555 S. 558

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

                                 S. 288

     TO ENCOURAGE CONTRACTING BY INDIANS AND INDIAN TRIBES FOR THE 
                       MANAGEMENT OF FEDERAL LAND

                                 S. 555

    TO ESTABLISH THE NATIVE AMERICAN HEALTH AND WELLNESS FOUNDATION

                                 S. 558

TO ELEVATE THE POSITION OF DIRECTOR OF THE INDIAN HEALTH SERVICE WITHIN 
THE DEPARTMENT OF HEALTH AND HUMAN SERVICES TO ASSISTANT SECRETARY FOR 
                             INDIAN HEALTH

                               __________

                             APRIL 9, 2003
                             WASHINGTON, DC



86-532              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON INDIAN AFFAIRS

              BEN NIGHTHORSE CAMPBELL, Colorado, Chairman

                DANIEL K. INOUYE, Hawaii, Vice Chairman

JOHN McCAIN, Arizona,                KENT CONRAD, North Dakota
PETE V. DOMENICI, New Mexico         HARRY REID, Nevada
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
ORRIN G. HATCH, Utah                 BYRON L. DORGAN, North Dakota
JAMES M. INHOFE, Oklahoma            TIM JOHNSON, South Dakota
GORDON SMITH, Oregon                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska

         Paul Moorehead, Majority Staff Director/Chief Counsel

        Patricia M. Zell, Minority Staff Director/Chief Counsel

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
S. 285, S. 555, S. 558 text of...................................     2
Statements:
    Benally, Jr., Hoskie, chief executive officer, Our Youth, Our 
      Future.....................................................    47
    Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
      chairman, Committee on Indian Affairs......................     1
    Davis-Wheeler, Julia, chairperson, National Indian Health 
      Board......................................................    44
    Kopanda, Richard, executive director, Substance Abuse and 
      Mental Health Services Administration, Rockville, MD.......    40
    Lincoln, Michel, deputy director, Indian Health Service......    40
    Raub, William, acting assistant secretary for Planning and 
      Evaluation, Department of Health and Human Services........    40

                                Appendix

Prepared statements:
    Benally, Jr., Hoskie.........................................    53
    Davis-Wheeler, Julia.........................................    70
    Naneng, Myron P., president, Association of Village Council 
      Presidents (with attachments)..............................    75
    Raub, William (with attachments).............................    55
    Zacharof, Mike, chairman, Alaska Native health board.........    80

 
                          S. 285 S. 558 S. 555

                              ----------                              


                        WEDNESDAY, APRIL 9, 2003


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m. in 
room 485 Senate Russell Building, Hon. Ben Nighthorse Campbell 
(chairman of the committee) presiding.
    Present: Senator Campbell.

 STATEMENT OF HON. BEN NIGHTHORSE CAMPBELL, U.S. SENATOR FROM 
        COLORADO, CHAIRMAN, COMMITTEE ON INDIAN AFFAIRS

    The Chairman. The committee will be in session. Good 
morning and welcome to the Indian Affairs hearing on three 
modest bills that I believe will positively impact the health 
and status of the Native people if they are enacted. Senator 
Inouye is running late and may be here in a little while, but 
we will go ahead and get started.
    Two of the bills that we will be dealing with this morning 
will benefit Indian health by attracting resources and 
attention to Native health issues, albeit in two different 
ways. S. 555 will establish the Native Health and Wellness 
Foundation to serve as the legal entity that can receive 
tribal, private sector and charitable donations for the 
purposes of Indian health care. S. 558 will enhance the 
presence and effectiveness of the Indian Health Service inside 
the Department of Health and Human Services by transforming the 
Director into an Assistant Secretary for Indian Health. This is 
Senator McCain's bill. And S. 285 is a bill that I have 
introduced for three Congresses in a row now to integrate 
existing alcohol, drug and mental health programs. Efforts to 
consolidate disparate Federal grant programs have been embraced 
by the tribes in the past, and have proven successful, such as 
the employment and training program known as the 477 program. 
With S. 285, we are trying to achieve the same kind of success 
with alcohol, drug and mental health programs.
    [Text of S. 285, S. 555, and S. 558 Follow:]
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. I am somewhat disappointed with the past 
opposition from the Department of Health and Human Services to 
this type of legislation. I hope that we will be able to work 
out our differences. The Department has expended a good deal of 
energy promoting its One-HHS proposal, which would restructure 
and consolidate functions within the Department of Health and 
Human Services to be more citizen-centered and results-
oriented. That is the very concept that I think is the 
foundation of S. 285, yet the Department of Health and Human 
Services has neither supported past versions of the bill or has 
offered helpful suggestions as to how we could improve it so 
that they could support it.
    Senator Inouye and I and other members have worked very 
hard to increase the resources for Indian health, and it is 
simply unacceptable to me that the inconvenience of the DHHS 
has not given them the impetus they need to support it or help 
us move this bill forward.
    We will start with our first panel, which is only Dr. 
William Raub, the acting assistant secretary for Planning and 
Evaluation for the Department of Health and Human Services. He 
will be accompanied by Michel Lincoln and Rich Kopanda.
    If you would just go ahead and set up there, Dr. Raub, we 
will start with you. Your complete testimony will be included 
in the record. If you would like to abbreviate, please feel 
free to do so. Thank you for appearing.

   STATEMENT OF WILLIAM RAUB, ACTING ASSISTANT SECRETARY FOR 
    PLANNING AND EVALUATION, DEPARTMENT OF HEALTH AND HUMAN 
   SERVICES, ACCOMPANIED BY MICHEL LINCOLN, DEPUTY DIRECTOR, 
  INDIAN HEALTH SERVICE; RICHARD KOPANDA, EXECUTIVE DIRECTOR, 
  SUBSTANCE ABUSE AND MENTAL HEALTH SERVICES ADMINISTRATION, 
                         ROCKVILLE, MD

    Mr. Raub. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear before you this morning. Mr. Kopanda is 
with me. We have learned that Mr. Lincoln is en route, caught 
in one of Washington's infamous traffic jams. With your 
permission, I will have him join us as he arrives.
    The Chairman. Absolutely. Sure.
    Mr. Raub. I will submit my full statement for the record 
and just make some brief comments now, as you have suggested, 
Mr. Chairman.
    The Chairman. That will be fine.
    Mr. Raub. First, with respect to S. 285, S. 285 would 
permit an Indian tribe to carryout a demonstration project 
according to a plan approved by the Secretary to consolidate 
grants for substance abuse and mental health programs into a 
single comprehensive program for purposes of providing improved 
services, facilitating implementation of an automated clinical 
information system, encouraging technology-based quality 
assurance activities, and facilitating evaluation of these 
programs. The Department supports the principle that Indian 
tribes know best how to meet the needs of their members. We 
have no objection to allowing tribes to consolidate programs 
addressing substance abuse and mental health problems where 
appropriate, consistent with the purposes of the underlying 
programs and in order to achieve administrative efficiencies.
    However, the Department has concerns with several 
provisions of S. 285 and thus cannot support it as currently 
drafted. I will summarize these concerns now. My prepared 
statement contains more extensive comments.
    No. 1, the bill does not delineate clearly the programs 
that would be subject to consolidation under the proposed 
authority. Nor does the bill delineate the permissible uses of 
the consolidated funds.
    No. 2, the bill is ambiguous with respect to how the grant 
consolidation authority applies to competitive grant programs.
    No. 3, the bill does not require that its authorized 
waivers of statutory or regulatory provisions be consistent 
with the statutory objectives of the grants proposed for 
consolidation. Prudent stewardship demands that such 
consistency be considered when assessing the appropriateness of 
a waiver.
    No. 4, the 90-day timetable for review of proposed grant 
consolidations is likely to be insufficient in most cases, 
given that a consolidation plan could involve up to seven 
separate Cabinet-level agencies and multiple components of 
several of them.
    No. 5, responsibility for leading the implementation of 
this Act should be vested in the Secretary of Health and Human 
Services, not the Director of the Indian Health Service.
    No. 6, the bill does not limit the amount of grant funds 
that could be used for administrative overhead and information 
technology.
    No. 7, the bill is not sufficiently specific as to the 
extent to which consolidated funds may be used for an automated 
clinical information system that serves not only the behavioral 
health program, as defined in the bill, but also the entire 
Indian health care delivery system.
    No. 8, the bill creates an unfunded mandate by shifting 
responsibilities for oversight of all consolidated programs to 
the Department, without making provision for transferring the 
corresponding administrative resources from the affected 
agencies.
    Notwithstanding these comments, Mr. Chairman, we endorse 
the concept behind S. 285 and are prepared to work with the 
committee to address our concerns.
    With respect to S. 558, we note that it elevates the 
director of the Indian Health Service to assistant secretary 
for Indian Health. We believe this action is unnecessary. The 
director of the Indian Health Service enjoys direct access to 
the secretary on all health services issues impacting tribes 
and tribal organizations. Moreover, the director serves as vice 
chair of the secretary's Intra-departmental Council for Native 
American Affairs and thus has a leadership role toward ensuring 
that Native American policy is implemented across all agencies 
and offices of the Department including human services 
programs.
    With respect to S. 555, we note that the bill authorizes 
the Secretary of Health and Human Services to establish a 
foundation through which private sector partnerships with the 
Federal Government could work to improve the health status of 
American Indians and Alaska Natives. This legislation is under 
review within the executive branch.
    Thank you for the opportunity to appear today, Mr. 
Chairman. I will be pleased to respond as best I can to your 
questions.
    [Prepared statement of Dr. Raub appears in appendix.]
    The Chairman. Okay. Thank you, Dr. Raub.
    First of all, you listed about eight reasons that you do 
not like the bill. I did not hear one, except a very general 
kind of a concept, about what you do like about it. So what I 
want you to do is not tell the committee so much about what is 
wrong with it. I want you to tell us how to fix it. I want you 
to submit some language that you think the Department can live 
with that we can try and integrate with the existing language.
    Mr. Raub. We would be pleased to do that, sir. As you have 
indicated, there have been successes in a comparable activity 
under the 477 authority. The problem and the opportunity for 
consolidation is often a general issue, not only with the 
Indian tribes, but with many entities of local government. So 
it is a concept of interest to the Department, and one of 
particular interest to the Secretary. So we would be pleased to 
work with the staff in addressing the aspects of the bill that 
cause concern.
    The Chairman. I appreciate that.
    You stated the strong objection to the IHS as the lead 
agency. You object, as I understand it, to the bill to elevate 
the IHS Director in S. 558 on the grounds that the IHS is 
already the principal point within the DHHS for Indian health. 
But at the same time, you object to the IHS as the lead agency 
for the purposes of alcohol and drug integration because, in 
your view, the Secretary and SAMHSA are the main agencies for 
substance abuse. Is there some disparity in your belief between 
those two?
    Mr. Raub. I do not believe so, sir. I think what we are 
saying is the Secretary, as the responsible official for the 
management of the Department, would wish to have vested in him 
the overall authorities. He would use those authorities to 
involve systematically not only the Administrator of SAMHSA but 
also the Director of the Indian Health Service and other agency 
heads as appropriate in addressing issues related to American 
Indians and Alaska Natives.
    The Chairman. I see.
    And also, as I understand your testimony, although I did 
not hear you say it specifically, but as I understand your 
testimony, you ``expect that the States will address'' mental 
health and substance abuse needs for Indians and Native 
Alaskans living within the borders of States. It has been my 
experience that they do not; that an awful lot of Indian people 
simply fall through the cracks. They do not get their needs 
addressed. Do you have some statistics that you can provide for 
the committee that indicates the States are providing this 
service?
    Mr. Raub. We would be glad to follow up on that question, 
Mr. Chairman. The reference in the statement was to the 
statutory provisions on those programs in SAMHSA that focus the 
awards at the State and look to the State to involve the tribes 
in funding and their integration with the State programs, but 
we can followup for the record.
    The Chairman. Well, they should. Sometimes what happens, 
though is that when Indians go to a general health clinic, they 
are told that they need to go to their reservation and get it 
through the Indian Health Service, which is sometimes 1,000 
miles away. That is a little difficult to do. So sometimes they 
just sort of give up and stay sick and do not have their needs 
met.
    So it seems to me that sometimes there might be some kind 
of a disparity with what you are saying and what is actually 
happening out there. So if you could--if there is any 
indication that you have that is solid, black and white 
information that we do not know that they are providing it, I 
would like to have that and I am sure the other committee 
members would, too.
    On the elevation bill, I think Secretary Thompson, who I 
have known ever since he was a Governor, and he is a very, very 
fine man, and doing his very best, but sometimes the intentions 
of one Secretary cannot determine what the intentions of a 
future Secretary are going to be. I worry that we will end up--
sometime in the future we may see the IHS Director relegated 
back to a second-tier position. I know that Senator McCain is 
concerned about that. That is why he introduced that elevation 
bill. Would you like to give us your profound wisdom on that?
    Mr. Raub. I doubt that I have profound wisdom about either 
the present or the future, Mr. Chairman, but I would say that 
the Secretary, as you indicated, is strongly committed to 
involving all the components of the Department with respect to 
Indian Affairs activities. He believes with his own leadership, 
that of the Deputy Secretary, the creation of the 
Intradepartmental Council, and the leadership involvement of 
the Director of the Indian Health Service in that, that he has 
actually gone beyond that which is implied by a title change 
with respect to the Director of the Indian Health Service.
    On the other hand, I am sure the Secretary will be 
attentive to the strong feelings of the members of the Congress 
with respect to that issue. He is always amenable to 
considering that.
    The Chairman. You may not want to answer this, but have you 
noticed any of what can commonly be described as ``turf 
problems'' with other agencies not wanting it to encroach on 
their areas of substance abuse?
    Mr. Raub. Sir, I have not.
    Richard.
    The Chairman. Yes; identify yourself for the record before 
you speak.
    Mr. Kopanda. Richard Kopanda from SAMHSA, Executive 
Officer.
    We have not noticed that either in SAMHSA.
    The Chairman. Would you like to tell Senator McCain that 
this is probably not a necessary bill? [Laughter.]
    I should not even ask you that. I know Senator McCain 
really well--a very determined man. I thought I would just pass 
that on to you.
    We have some additional questions for you and for IHS, too. 
I think those I will probably submit in writing to you, Dr. 
Raub, if that is all right with you. I am not sure if anyone 
else will be showing up. As you might guess, it is pretty 
hectic around here. Many of us are trying to cover two 
committees at the same time.
    With that, I do appreciate your being here, and when you 
get questions in the record from Senator Inouye or other 
members, if you would answer them in writing, I would certainly 
appreciate it.
    Mr. Raub. Thank you, sir. We will.
    The Chairman. Thank you.
    We will now go to the second panel, which would be Julia 
Davis-Wheeler from the National Indian Health Board; and Hoskie 
Benally, the CEO of Our Youth, Our Future, Incorporated in 
Farmington.
    We will go ahead, Ms. Davis-Wheeler. Nice to see you here 
again. What--twice now in 2 weeks or 3 weeks?
    Ms. Davis-Wheeler. Yes; 2 weeks.
    The Chairman. Very happy to see you here. Go ahead.

STATEMENT OF JULIA DAVIS-WHEELER, CHAIR, NATIONAL INDIAN HEALTH 
                             BOARD

    Ms. Davis-Wheeler. Good morning everyone. It is a pleasure 
to be here. As stated for the record, my name is Julia Davis-
Wheeler and I am chairperson of the National Indian Health 
Board. I also serve as Secretary for the Nez Perce Tribe 
Council in Idaho. On behalf of the National Indian Health 
Board, it is a great pleasure to be here to offer testimony 
regarding this health-related legislation. At NIHB, we serve 
all the Federal-recognized American Indians and Alaska Natives 
tribal governments in advocating for health care delivery to 
all of our people at home. We strive to advance the level of 
health care and the adequacy of funding for health services 
that are operated by Indian Health Service programs, operated 
directly by tribal governments and other programs.
    We have Board members that represent the 12 areas of IHS 
and are elected at-large by their respective tribal government 
officials within their region. We continue to work diligently 
to address the health disparities that continue to plague 
Indian country. There are several legislative items that have 
been introduced during the 108th Congress that would help us 
improve the health status of American Indians and Alaska 
Natives.
    The first one I would like to speak about is the Indian 
Health Service Director elevation to Assistant Secretary of 
Indian Health. Before I begin discussing S. 558, I would like 
to say a few words about the Secretary of Health and Human 
Services, Tommy G. Thompson. As a tribal leader, I feel very 
comfortable in saying that Secretary Thompson has been the most 
accessible Cabinet secretary in this Administration. He and his 
immediate staff have been available at every possible 
opportunity to visit with tribal leaders and to see first-hand 
the health needs of our people. It is good to see visits to 
Indian country by the President's Cabinet members. I myself was 
at Tacoma, Washington when Deputy Secretary Claude Allen 
attended a coastal meeting there with Northwest leaders. It was 
very well received.
    Also, the National Indian Health Board is aware that the 
committee will consider the nomination of Dr. Charles Grim as 
Director of the Indian Health Service. As I mentioned in my 
testimony last week, we support this nomination. We support his 
nomination and we appreciate his willingness to take on this 
hard, significant role. Resolutions were passed by Affiliated 
Tribes of Northwest Indians, the National Congress of American 
Indians, the National Indian Health Board, and tribal leaders 
have pushed since 1995-1996 to elevate the status of the Indian 
Health Director as means to recognize the importance of the 
Federal Government's functions in carrying out its trust 
responsibility.
    I would like to give you an example of why tribal leaders 
feel this elevation is important. One example is in 1996 when 
President Clinton had a tribal government meeting at the White 
House, the Director of Indian Health Service at that time was 
not allowed to sit with the Cabinet members at this meeting. It 
proved to be not embarrassing, but a little hard for us as 
tribal leaders to see the Director of Indian Health Service set 
to the side, while all the other Cabinet members were brought 
up forward to meet with tribal leaders and the President.
    We have been asking for another meeting with the President. 
The tribal leaders wish to meet with the President and that has 
not come about. So I just wanted to mention that to you.
    The intent of S. 558 is quite appropriate, as it does just 
that in a manner consistent with the government-to-government 
relationship between the United States and the tribal 
governments that have signed their treaties. As we advance this 
legislation, we want to take adequate steps to ensure that we 
build on the improvements that have been made within the 
Department of HHS over the last few years in addressing tribal 
issues, and further that the Indian Health Service continues to 
be a part of this effort. We feel that this can be accomplished 
with revisions to S. 558, and I have prepared specific 
recommendations on the language for S. 558. I would like to 
submit them for the record.
    Our recommendations would be to place the Indian health 
director at the level of the assistant secretary of Indian 
Health, but do it in a manner which does not diminish the 
secretary's responsibility to carry out the Federal 
Government's trust responsibility.
    As I mentioned previously, over the past several years 
Americans Indians and Alaska Natives have slowly crept into the 
mind set of nearly all areas of DHHS. There are three facts 
that I would like to bring forward: No. 1, informed personnel 
and the elevation of tribal issues with the Office of the 
Secretary. No. 2, the hard work of the Indian Health Service 
officials to advance issues internally. No. 3, and most 
importantly, the persistence of tribal governments to ensure 
that the purpose and intent of the Executive order mandating 
tribal consultation is properly carried out.
    One of the more significant examples of the increased 
awareness and acknowledgement of the importance of Indian 
issues within the Department is the revival of the Secretary's 
Intradepartmental Council on Native American Affairs, which is 
cochaired by the Indian Health Service Director. Because of the 
many critical issues that need to be addressed within the 
Department of HHS, we feel that any changes to the structure of 
the Department must be done in a manner that does not isolate 
Indian health issues, but instead makes those issues a common 
thread among all Department areas.
    The integration and consolidation of alcohol and substance 
abuse--all of the purposes expressed in S. 285, the Native 
American Alcohol and Substance Abuse Program Consolidation Act 
of 2003, serve to improve the delivery of alcohol and substance 
abuse. As a tribal leader, I commend the Senator for 
introducing this bill. American Indians and Alaska Native 
tribal governments are consistently searching for ways to 
develop more effective and efficient programs to better serve 
tribal members, and are extremely interested in providing such 
services, utilizing the best practices available.
    While we are certainly supportive of legislation that seeks 
to coordinate and improve the delivery of alcohol and substance 
abuse throughout Indian Country, tribal leaders have expressed 
their concern with certain provisions of this legislation. Many 
of the concerns are due to the language establishing a lead 
agency. The National Indian Health Board feels the IHS is an 
appropriate and capable agency to administer such duties. Also, 
we feel it is equally important to engage all applicable 
agencies to the greatest extent possible, to ensure that IHS 
carries out the functions of this collaborative effort in an 
appropriate manner.
    As an advocate for the alcohol and substance abuse, we as 
tribal leaders need to do all we can to not allow the younger 
generation to fall to the devastating disease of alcohol and 
substance abuse. Perhaps this could be achieved by utilizing a 
committee consisting of the involved agencies, chaired by the 
Indian Health Service. All activities of the lead agency under 
this proposed Act would be carried out according to the 
decisions made by the committee, with input from tribal 
governments. Further consultation should be included to provide 
for tribal involvement for all measures that would affect the 
provision of alcohol and substance abuse treatment in Indian 
country.
    Establishing the Native American Health and Wellness 
Foundation, the intent and purpose of S. 555, to create this 
Wellness Foundation, is absolutely appropriate, and mirrors 
much of what occurs in the private sector delivery of health 
services. It would serve as a valuable mechanism to maintain a 
single organization to allow for the Indian Health Service to 
receive charitable support. Such an entity has not existed 
previously, which has deterred the donation of such support. 
The National Indian Health Board urges that the Foundation's 
activities do not have a negative impact on the Indian Health 
Service budget, but rather serves to boost the Indian Health 
Service funding.
    I would also like to mention that the National Indian 
Health Board would be a capable umbrella organization under 
which the proposed Foundation could operate. As of March 3 of 
this year, the NIHB fully operates out of the Washington, DC 
area and is governed by Board members from across Indian 
country. Many of the activities that would be provided by the 
Foundation, such as activities furthering the health and 
wellness of American Indians and Alaska Natives, and 
participating with and assisting Federal, State, and tribal 
governments, are already provided by the National Indian Health 
Board. We would be willing and supportive to discussing this 
with the committee. We feel this bill should be a part of the 
consultation process.
    In conclusion, I would like to thank the committee for its 
consideration of our testimony and for your interest in the 
improvement of the health of American Indians and Alaska Native 
people. We are certainly pleased that this is the third hearing 
to take place so far this year on Indian Health, and we trust 
that our issues will continue to be a priority for the 108th 
Congress.
    Thank you.
    [Prepared statement of Ms. Davis-Wheeler appears in 
appendix.]
    The Chairman. Thank you, Julia.
    Why don't you go ahead, Mr. Benally, and then I will ask a 
couple of questions of each of you.

STATEMENT OF HOSKIE BENALLY, Jr., CHIEF EXECUTIVE OFFICER, OUR 
                    YOUTH, OUR FUTURE, INC.

    Mr. Benally. Thank you.
    I come from more of a direct service perspective with 
regard to this bill, S. 285. I just want to discuss the 
importance of the management information system. We have run a 
treatment program for 13 years for Native American adolescents 
down in New Mexico, and serve not only Navajos, but other 
tribes in that area. One of the things that we found was that a 
sound management information system is very helpful in 
determining the needs of clients, as well as determining the 
needs of staff members.
    Some of the statistics that we got out were very helpful to 
us--such stats as what kind of drugs are we seeing in our 
youth? We specialize in adolescent youth treatment, and it 
would be surprising to see some of the things that we thought 
were still in the cities coming onto the reservation. So in 
identifying those types of drugs, such as methamphetamines; 
ours is a high-traffic for that drug. We were able to again 
gear up our staff and provide training in that area to help 
them deal with this drug. But if we did not have this 
management information system to give us that kind of 
information, we would not have been able to identify those 
treatment needs and the client needs in those areas.
    But I think the one thing is that in Navajo country or 
Indian country as a whole (we also provide consultation 
services to other Indian tribes) is that we really do not have 
a handle on where we are in the battle against drugs and 
alcohol, complicated by the addition of the mental issues that 
go along with that. We know that research shows that a high 
percentage, I think in the general public 64 percent have a 
mental health disorder that is driving the substance abuse. In 
this area, we have been able to train our staff with help from 
a Ph.D-level clinical psychologist and master's level people to 
be able to help the youth in this area.
    The other thing I would like to say is that this management 
information system helped us, we are in New Mexico, to become 
accredited by the Joint Commission on Accreditation of Hospital 
Organizations, which is a national accreditation--very 
stringent accreditation that we sought and we received back in 
1993. But along with that, we were licensed with the Children, 
Youth and Families Department of New Mexico. One thing that we 
are finding out there, in talking to other tribes and also 
providing consultation services, is that because of the lack of 
outcome data being produced by treatment programs, they are 
having a hard time tapping into Medicaid dollars, because 
Medicaid requires that you be able to provide outcome data to 
show the effectiveness and quality of your treatment. So we 
were able to do that, and in addition to receiving other 
Federal dollars, we were able to receive Medicaid dollars to 
supplement the operation of the organization.
    Now, I would just like to say also that I think this bill 
here is something that is long in coming and something that I 
think is very useful, because we are finding out that tribes 
out there are not conducting the assessments that are necessary 
in order to identify some of the mental health issues and some 
of the drug disorders that are out there. We are primarily 
focusing on alcohol abuse. With this bill, that will improve 
that and provide quality and effective services to our Indian 
people, I feel. It is more from a direct service approach that 
we are seeing these things happen. So we are real supportive of 
this bill here.
    I would like to say thank you.
    [Prepared statement of Mr. Benally appears in appendix.]
    The Chairman. Thank you.
    Julia, speaking of S. 285, I might tell you that I briefed 
your written testimony and then tried to listen as well as I 
could to your verbal testimony. It is a little bit different--
or not maybe different, but it seems to be a little milder than 
the comments in your written testimony.
    I guess this is the third time we have dealt with this bill 
in hearings on it, and to my knowledge at our previous hearing, 
there has been no tribal leader, no Indian health organization 
that has made any objections about it at all. Has something 
changed since then, or has it been the official position of the 
member tribes of the NIHB--they just made the decision recently 
about this bill?
    Ms. Davis-Wheeler. Senator Campbell, on the S. 285, it was 
a big discussion at the National Congress of American Indians 
meeting that we had in San Diego last fall. From the discussion 
in the Health Committee that I chair, through the human 
resources structure of NCAI, there was a lot of discussion at 
that meeting that it needed to be looked at a little bit more.
    The Chairman. Well, was part of that discussion your 
opposition to having the IHS as the lead agency?
    Ms. Davis-Wheeler. I did not hear any opposition to having 
Indian Health Services the lead agency, but I guess in the 
record there might be a few that did have a little concern.
    The Chairman. You spoke some of a committee of agencies. Do 
you believe a committee or several agencies can do a better job 
than having one agency responsible, on whose desk the buck 
stops?
    Ms. Davis-Wheeler. The idea was to have someone from each 
agency on the committee to bring about the awareness of the 
tribal leaders or tribal governments' needs, as stated by Mr. 
Benally. We have a lot of drugs on the reservations that are 
brought in from the cities, and having SAMHSA, the other 
agencies present where they can hear that from the tribal 
leaders personally, I think it would help. If anything, it 
would bring about more awareness to all of the Federal 
agencies.
    The Chairman. You mentioned the work that Secretary 
Thompson is doing, and I also said I think he is doing a 
terrific job. He has been very sensitive, I think, to Indian 
issues. But he is only going to be there about 6 more years. 
That is the way it works around here. If the Administration 
changes, well, maybe less than that, but the max would be 6 
more years. Are you confident that the next person that is 
going to be there is going to be as sensitive as Secretary 
Thompson is, because that is one of the reasons I am pushing 
this bill--to give it some continuity through different 
Administrations that support Indian programs and are less 
supportive of Indian programs.
    Ms. Davis-Wheeler. Senator Campbell, I think you have hit 
the nail on the head with that one because we as the National 
Indian Health Board and other national organizations see this 
Administration as being, I guess, an advocate for us in Indian 
country to push legislation. It would be great to have 
Secretary Thompson leave a legacy, in the event that in 6 years 
he has helped us elevate our health status, but leave a legacy 
with us as tribal leaders to honor that administrative Cabinet 
position, and especially in the area of Indian health, but also 
in the area of elevation of the Indian Health Service Director.
    I heard from the testimony previously that the gentleman 
from the DHHS does not feel that it is necessary. I would 
respectfully disagree that as a tribal leader, we have been 
wanting to see this position elevated for such a long time. It 
would make us, as tribal governments, feel better to see the 
IHS Director position elevated. He could really do something 
for us if he would support that.
    The Chairman. I think so, too, but did I understand your 
testimony, you said that elevation should be in a way that does 
not diminish the Secretary's responsibilities to tribal 
governments. Are you worried about an erosion of trust 
responsibility if that position was elevated?
    Ms. Davis-Wheeler. No; not at all. I think that those two 
positions would go hand in hand. Secretary Thompson has been 
very open and able, when he can, to meet with us. He has shook 
our hands and talked with us. We really appreciate that. He has 
given us more time on his agenda than anyone else.
    The Chairman. Was somebody from his agency, or he, at San 
Diego--at the National Congress of American Indians?
    Ms. Davis-Wheeler. Yes; but because of the schedules, I 
cannot remember the exact dates, but they had to just come in 
for a day or two and then go right back out.
    The Chairman. Mr. Benally, from listening to your 
testimony, it sounds to me that your organization is doing a 
terrific job for Native youngsters who are obviously suffering 
from an increased problem with drugs and alcohol. You talked at 
length about the information technology. We have received some 
complaints about this accounting system that is currently used 
by the IHS called the RPMS--the Registered Patient Management 
System. Does your member organizations and clinics use that 
kind of software?
    Mr. Benally. The program that we originally used--this was 
introduced by IHS--we are one of several regional adolescent 
treatment centers throughout the United States that were 
originally funded by the omnibus drug bill of 1986. We became 
the third one to open, but Orion (ph) Health Care, which is 
also called Accurate Assessments and apparently had a contract 
with IHS back about 1998, I think it was somewhere about that 
time, to look into developing a management information system 
and offer it to the adolescent treatment centers. We took 
advantage of that and brought it into our treatment center and 
found it to be very, very useful.
    The other thing that we added onto that system was a 
cultural assessment part that we developed with Accurate 
Assessments to address at some of the cultural needs of our 
students. But what we are finding out is that the old Cadmus 
system did not work, and we are finding out now that perhaps 
IHS is looking at developing another one. I guess my position 
is why develop another one when you have one that is already 
working and proven to work, and there is other software out 
there that can work? It is just going to put us behind time-
wise. This management information system that we are using is 
also being used by 130 other Native American programs in the 
United States. I think the States are beginning to look at 
these programs with their tribes that reside within their 
States. So we have been real happy with it.
    The Chairman. That is a system you would advise the IHS to 
use with all tribes?
    Mr. Benally. Pardon?
    The Chairman. Is that a system that you would advise the 
IHS to use for all tribes?
    Mr. Benally. Yes; I would very strongly recommend that 
because we have used it. We have also; in providing 
consultation to other Indian tribes, found that it is something 
that is very--can be used by other tribes; has proven to work 
for us, and we have shared data with them. I think CSAT also--
we have a CSAT grant, and CSAT has recognized our program as an 
exemplary program in using this software, because it helped to 
provide cost analysis and also helped to provide an evidence-
based treatment program. In other words, we did research with 
this, and it brought a lot of data forward that says that the 
program that we used, not only with our adolescents but with 
the families, was very effective. CSAT is now using us as their 
consultant out there to train others in what they call the 
Accurate Assessment Addiction Severity Index.
    The Chairman. One of the goals of S. 285 is to try to make 
it easier for a tribe to take part in grants and programs that 
might otherwise have been too complicated to apply for, through 
all the different bureaucratic requirements. Are there any 
grants or programs that your organization might be interested 
in that you have found too difficult, too time consuming, or do 
not have the resources to be able to apply for those grants?
    Mr. Benally. Yes; well, I am lucky. I have a Ph.D clinical 
psychologist who has been trained in grant writing, and a 
master level social worker. But if I did not have those people, 
I would not be able to apply for these grants at the level of 
sophistication the grantors are asking for. Now, if the grants 
come out in accordance to this bill in which that you are 
asking for a management system, then I think a lot of tribes 
out there are going to have a tough time with it because I do 
not think they have that infrastructure at this point in time 
to realistically or with much knowledge respond to a grant 
management information systems. I think some kind of transition 
period of technical assistance needs to be provided in that 
area because I think these grants are going to require that 
component before receiving dollars.
    The Chairman. What did you say your Ph.D was in?
    Mr. Benally. No; I have a clinical psychologist who is a 
Ph.D that is on my staff.
    The Chairman. Oh, I see. Very good. Thank you.
    I have no further questions, but Senator Inouye or other 
members may submit some for writing. As I told the first panel, 
I do not want to hear just what is wrong with everything. What 
I want to hear is how we make it better, how we try and move 
something that is going to benefit Indian people. So any 
suggestions you have for S. 285 or any other bills, the other 
two bills, I would appreciate hearing from you
    Yes, Julia?
    Ms. Davis-Wheeler. Yes; thank you, Senator Campbell.
    My oral comments were very different from the written 
comments that were submitted. For the record, I would like you 
to know as the Chair of this committee that we will send a 
revised set of testimony from NIHB.
    The Chairman. Did you talk to somebody between the time you 
sent in the written testimony and the time you--okay.
    Ms. Davis-Wheeler. Okay. [Laughter.]
    The Chairman. I have no problem with that. We do it, too. 
Great. Alright, thank you for being here. I appreciate that.
    Ms. Davis-Wheeler. Thank you.
    The Chairman. I notice Mr. Lincoln came in. I understand 
you were tied up in traffic. I have got a little time. Would 
you like to make your statement for the record, Mr. Lincoln? 
Oh, you were going to accompany Dr. Raub. I see.
    Mr. Lincoln. I was going to accompany Dr. Raub, and I do 
apologize to the committee. I mean no disrespect ever to this 
committee.
    The Chairman. I understand, yes.
    Mr. Lincoln. These bills are important.
    The Chairman. Yes; particularly around the Capitol here 
with the grounds all torn up and the new sensitivity to post-9-
11 problems, it is a mess to try to get around.
    But I would like to maybe ask you a question if I could, 
and that deals with the elevation bill. Is it your view that 
the IHS Director as the Vice Chairman of the Intradepartmental 
Council for Native Americans currently enjoys an elevated 
status without actually being elevated?
    Mr. Lincoln. It is my observation, Mr. Chairman, if I may 
reflect just briefly on the 11 years that I have been back here 
at headquarters in the Indian Health Service as the Deputy 
Director, that Dr. Grim, the Interim Director, indeed does 
enjoy more access than I have ever seen with the Secretary.
    The Chairman. You have been there 8 years. How many 
Directors have there been?
    Mr. Lincoln. I came when Dr. Everett Rhodes was the 
Director, also with Dr. Michael Trujillo and now with Dr. Grim.
    The Chairman. And I think if I am not mistaken Senator 
McCain has introduced this bill about 8 years in a row or 
something--about 8 years in a row. It has never really gone 
anywhere yet. Have you--well, I will not ask you that. It would 
be subjective. I will not bother asking you.
    Okay. Thank you. I appreciate your being here. I may submit 
additional questions to Dr. Raub or you, too, on behalf of the 
committee.
    Mr. Lincoln. Thank you, sir.
    The Chairman. I have no further comments or questions. We 
will keep the record open for two weeks for any additional 
comments from the audience in general or from the people who 
testified.
    With that, the hearing is adjourned. Thank you for 
appearing.
    [Whereupon, at 10:45 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]


=======================================================================


                            A P P E N D I X

                              ----------                              


              Additional Material Submitted for the Record

=======================================================================


   Prepared Statement of Hoskie Benally, Jr., Member, Navajo Nation, 
                              Shiprock, NM

    My name is Hoskie Benally, Jr. I am a member of the Navajo Nation 
of Shiprock, NM. For the past 14 years, I have been the Chief Executive 
Officer of a private non-profit American Indian owned organization, Our 
Youth, Our Future, Inc. (OYOF). OYOF has operated a residential 
treatment center on the Navajo reservation and a community health 
center in Farmington, NM. A majority of our funding came from the 
Indian Health Services (IHS) and the collection of Medicaid dollars.
    Currently we serve as advocates for American Indian adolescents and 
families in the area of alcohol and other drug treatment along with 
mental health disorders. We conduct outcome base research on our 
programs and disseminate information in order to improve the lives of 
our adolescents in need of treatment. Through these endeavors, OYOF has 
developed the Multi-systemic Cultural Treatment Model for American 
Indian adolescents and their families. This treatment model uses a 
multi-modal assessment strategy to measure symptom changes and pro-
social functioning at intake, termination, 6, and 12 months following 
termination. This is one of the few if not the only manualized 
treatment model for American Indian adolescents that includes a 
treatment outcome design. In addition, it has a quality assurance 
system developed for American Indian programs. OYOF has responded to 
the call of future substance abuse treatment to be guided by a blend of 
best practice clinical treatment and innovative high-tech computer 
technologies. This approach is to facilitate alcohol and other drug and 
mental health treatment that is high-quality, timesaving, consistent, 
evidence-based and cost-effective. OYOF secured a Center for Substance 
Abuse Treatment (CSAT) 3-year grant to conduct a program evaluation and 
a cost analysis of the residential treatment program. Critical 
information was gleaned from the data that provided pertinent 
information to improve treatment of our adolescents. Without this vital 
information our program may not have achieved the success we have 
experienced.
    It is important to realize that a majority of our success was due 
to the implementation of a user friendly management information system 
(MIS). The following are some of the tasks that the MIS completed:
    Manages clinical service hours (prescribed v. actual received 
services).
    Tracks clinician's billable hours for Medicaid and Managed-Care 
services.
    Tracks client's response to treatment and the need of additional 
services.
    All clinical documentation is automated allowing for close 
supervision of treatment.
    This system generates reporting requirements and supports outcome 
base treatment. The above tasks improve the overall quality assurance 
of the program and allows for a structured and consistent treatment to 
be implemented.
    This system allowed us to meet all of our JCAHO accreditations, 
Children, Youth, and Families Department, State of New Mexico and 
Medicaid regulations. In addition, we had Government Performance 
Regulation Act (GPRA) indicators and also the monthly, quarterly, and 
annual tribal government reports. Many of these reports overlapped and 
when we were collecting this data on a manual basis was almost 
impossible to accomplish. Upon implementing a MIS clinical 
documentation system, our ability to collect and collate the data was 
improved substantially. However, it is important to note that the 
overlap continued and we spent many hours disseminating this 
information for the different governing entities. We created innovative 
ways to meet these standards by developing a computerized report that 
met majority of the data reporting requirements. It is important to 
realize that majority of American Indian treatment programs do not have 
this capability or the skilled staff to meet this level of reporting. 
The initial step of implementing a MIS can be costly if an analysis is 
not conducted to determine the actual need in hardware, software, and 
staffing. There are many for-profit organizations that have developed 
such MIS and are being used in Indian country. Accurate Assessments has 
worked with IHS since 1998 customizing software to meet the specialized 
needs of the treatment programs. They are currently serving over 130 
American Indian treatment programs. This is the MIS that OYOF has used 
since 1998 and was instrumental in collecting data that secured our 
CSAT grant.
    Recently, IHS has made the decision to write and develop their own 
MIS for substance abuse. Even though there are excellent programs that 
exist in the field for possibly half the cost. Therefore, it may not be 
the most cost effective approach for IHS. We have been waiting for more 
than 3 years for IHS to respond to the need of treatment programs to 
have ``real time'' data that they can access simply by sitting at their 
computer. In addition, many treatment programs do not collect their 
GPRA data and the area offices have difficulty meeting their data 
requirements. This lack of quality data collection is a result of the 
lack of communication with the field and IHS. The following are some of 
the reasons why agencies do not receive quality data:
    No. 1. Lacks of compliance due to no initial buy in from the field 
in what to collect and the importance of such data.
    No. 2. Trusting IHS to analyze and interpret the data in a 
culturally appropriate manner.
    No. 3. Providing ``real time'' data reports and/or feedback.
    No. 4. Lacks of a user friendly system that can accommodate the 
many challenges of rural programs.
    No. 5. Lacks of ongoing support and training to make the data have 
practical application to the field.
    No. 6. Finally, many of the programs do not have properly trained 
staff to complete the tasks.
    Finally, how do we decrease the ``redtape'' of securing the funding 
from the government to the tribes and/or treatment programs? This is 
not an easy question to answer. It is very complex and has much to do 
with the lack of standards that are required for tribal treatment 
programs to meet. Many of the programs do not have evidence-based 
treatment that requires a data collection component let alone the 
expertise to collect such data that would be require to write a grant. 
It will be vital that this committee look at the whole system and take 
this opportunity to develop a system that not only wants to fund 
programs, but will demand accountability from any program that secures 
such funding. However, the most important issue is that my people 
receive the best treatment possible and that we begin to make gains in 
keeping our young people from a life of alcohol and drugs, trauma, 
poverty, and the loss of hope.
    I thank you for the valuable opportunity to submit written 
testimony and to provide oral testimony to this committee.
[GRAPHIC] [TIFF OMITTED] T6532.001

[GRAPHIC] [TIFF OMITTED] T6532.002

[GRAPHIC] [TIFF OMITTED] T6532.003

[GRAPHIC] [TIFF OMITTED] T6532.004

[GRAPHIC] [TIFF OMITTED] T6532.005

[GRAPHIC] [TIFF OMITTED] T6532.006

[GRAPHIC] [TIFF OMITTED] T6532.007

[GRAPHIC] [TIFF OMITTED] T6532.008

[GRAPHIC] [TIFF OMITTED] T6532.009

[GRAPHIC] [TIFF OMITTED] T6532.010

[GRAPHIC] [TIFF OMITTED] T6532.011

[GRAPHIC] [TIFF OMITTED] T6532.012

[GRAPHIC] [TIFF OMITTED] T6532.013

[GRAPHIC] [TIFF OMITTED] T6532.014

[GRAPHIC] [TIFF OMITTED] T6532.015

[GRAPHIC] [TIFF OMITTED] T6532.016

[GRAPHIC] [TIFF OMITTED] T6532.017

[GRAPHIC] [TIFF OMITTED] T6532.018

[GRAPHIC] [TIFF OMITTED] T6532.019

[GRAPHIC] [TIFF OMITTED] T6532.020

[GRAPHIC] [TIFF OMITTED] T6532.021

[GRAPHIC] [TIFF OMITTED] T6532.022

[GRAPHIC] [TIFF OMITTED] T6532.023

[GRAPHIC] [TIFF OMITTED] T6532.024

[GRAPHIC] [TIFF OMITTED] T6532.025

[GRAPHIC] [TIFF OMITTED] T6532.026

[GRAPHIC] [TIFF OMITTED] T6532.027

[GRAPHIC] [TIFF OMITTED] T6532.028

[GRAPHIC] [TIFF OMITTED] T6532.029

[GRAPHIC] [TIFF OMITTED] T6532.030

[GRAPHIC] [TIFF OMITTED] T6532.031

[GRAPHIC] [TIFF OMITTED] T6532.032


</pre></body></html>
